AUDIT OF THE EXECUTIVE OFFICE FOR

UNITED STATES ATTORNEYS’ LAPTOP 

COMPUTER AND ELECTRONIC TABLET

   ENCRYPTION PROGRAM AND

            PRACTICES

          U.S. Department of Justice

        Office of the Inspector General

                 Audit Division


             Audit Report 14-15

                March 2014

   AUDIT OF THE EXECUTIVE OFFICE FOR UNITED STATES

     ATTORNEYS’ LAPTOP COMPUTER AND ELECTRONIC

      TABLET ENCRYPTION PROGRAM AND PRACTICES


                            EXECUTIVE SUMMARY


       Ensuring the proper encryption of laptop computers (laptops) and
electronic tablets used by United States Attorney’s Office (USAO) employees,
contractors, and subcontractors is essential to the security of the information
that is processed on those machines. While each U.S. Attorney is the chief
federal law enforcement officer for their jurisdiction, it is the Executive Office
for the United States Attorneys (EOUSA) that provides general executive
assistance, direction, policy development, and management oversight of
encryption policies and practices.

       The Office of the Inspector General (OIG) performed this audit to
determine whether EOUSA complies with Department of Justice (DOJ) policy
regarding: (1) the use of whole disk encryption on employee, contractor,
and subcontractor laptops processing sensitive and classified information;
and (2) laptop encryption procedures for contractors and subcontractors. In
the process, we also included electronic tablets because EOUSA received a
waiver of certain encryption requirements from the Department to deploy
this type of electronic tablet in a pilot program. 1

       According to EOUSA, it had 10,790 laptops and 1,044 electronic
tablets in use during our audit period. We found that 111 of the 120
EOUSA-owned laptops that we tested that were used for unclassified
processing were encrypted and 6 were not encrypted; we could not
determine the encryption status for the remaining 3 laptops. The six
unencrypted laptops were used for special purposes such as jury use, use by
visiting EOUSA employees, and the production of employee identification
cards. However, the six unencrypted laptops were not labeled to identify
their special use, nor were there policies that explicitly limited their use.




       1
         The electronic tablet waiver allows a manufacturer’s electronic tablets to be used
without complying with National Institute of Standards and Technology (NIST) Federal
Information Processing Standards (FIPS) 140-2 “Security Requirements for Cryptographic
Modules.” Modules validated as conforming to FIPS 140-2 are accepted by the U.S. Federal
Agencies for the protection of sensitive information. This waiver allows time for the
manufacturer to complete the required FIPS validation with NIST.


                                              i
       We also reviewed a sample from three encryption monitoring scans
completed by EOUSA’s Information Systems Security staff as part of its
encryption monitoring program. These scans are used to identify
unencrypted laptops that should be encrypted. The first two scans identified
approximately 60 unencrypted laptops that were resolved by EOUSA
encrypting these laptops in a timely manner. The third scan, however,
identified eight unencrypted laptops, the encryption status of which had
gone unaddressed for over a year.

       Our audit noted other issues regarding the management and
monitoring of the devices we tested. For instance, we found that EOUSA’s
official equipment inventory was incomplete, contained inaccurate data
entries, and was subject to delays in updating information. We further
determined that EOUSA did not sufficiently track and monitor laptops used
for classified processing, causing an increased risk of classified information
loss. We also tested two classified laptops and three classified hard drives
for encryption while on our site visits. We determined that one of the
laptops was encrypted, but one laptop and one hard drive were not
encrypted and the remaining two hard drives were inoperable.

      We evaluated EOUSA’s use of electronic tablets as part of its pilot
program and found that EOUSA did not fully comply with JMD’s electronic
tablet waiver requirements. Further, EOUSA does not adequately monitor
the use of the electronic tablets and does not have policies sufficient to
minimize security risks.

       In addition, we reviewed EOUSA’s procedures for contractor use of
DOJ data, specifically those of expert witnesses and litigation consultants,
and found that the use of this data was not in compliance with the DOJ
Procurement Guidance Documentation 08-04, which requires that external
contractors’ laptops be encrypted to process DOJ data. The Justice
Management Division had previously granted a waiver to EOUSA from this
encryption requirement but the waiver had expired in 2011, and no formal,
written waiver was issued in its place. However, EOUSA continued to allow
its contractors to process the DOJ data on their unencrypted equipment.
When JMD issued a new waiver to EOUSA in February 2013, the waiver
included a new requirement that all data transmitted to contractors must be
encrypted, but EOUSA did not convey this new instruction to the USAOs. We
also found that the oversight of these contractors and the contracting
process was inconsistent among USAOs, and that the use of DOJ data in
general was not sufficiently monitored by the USAOs we visited, thereby
increasing the risk of DOJ data loss.


                                       ii
     Our audit resulted in 13 recommendations to assist EOUSA in
improving safeguards of DOJ data on laptops and electronic tablets, and in
improving its management oversight to ensure compliance with DOJ policies.




                                    iii
 AUDIT OF THE EXECUTIVE OFFICE FOR UNITED STATES

ATTORNEYS’ LAPTOP COMPUTER AND ELECTRONIC TABLET

       ENCRYPTION PROGRAM AND PRACTICES

                              TABLE OF CONTENTS


INTRODUCTION ................................................................................1


   Laptop Encryption Policy Within DOJ ..................................................1


   Laptop Encryption Policy for Contractors ............................................1


   EOUSA’s Use of Contractors for Litigation Support ...............................4


   OIG Audit Approach .........................................................................5


   Previous Audits on Laptop Encryption Programs and Practices ...............5


FINDINGS AND RECOMMENDATIONS ................................................8


EOUSA’S EFFORTS TO ENSURE SAFEGUARDS OVER DOJ DATA ON

LAPTOP COMPUTERS AND ELECTRONIC TABLETS NEED

IMPROVEMENT ..................................................................................8


   Laptop Computers and Electronic Tablets Owned by EOUSA ..................9


       Encryption Requirements and Encryption Process ............................9


       Laptop Encryption Testing .......................................................... 10


       Encryption Installation Records Not Maintained ............................. 12


       Laptop and Electronic Tablet Inventory ........................................ 15


   EOUSA Electronic Tablet Pilot Program ............................................. 18


       EOUSA Compliance with Electronic Tablet Waiver Conditions .......... 19


       Electronic Tablet Policies and Procedures ...................................... 21


       Electronic Tablet Password Testing .............................................. 22


       Electronic Tablet Risks and Observations ...................................... 22


   Laptop Computers Owned by Contractors and Subcontractors.............. 23


       OBD-47 Contractor Compliance with PGD 08-04 ............................ 23

      USAO, Expert Witness, and Litigation Consultant Compliance with
      Data Security Requirements ....................................................... 25


      Conclusion ................................................................................ 28


      Recommendations ..................................................................... 28


STATEMENT ON INTERNAL CONTROLS ............................................ 30


STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS....... 31


APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ................ 32


APPENDIX II: DOJ PROCUREMENT GUIDANCE DOCUMENT 08-04, 

CONTRACTOR-OWNED LAPTOP SECURITY REQUIREMENTS ............ 35


APPENDIX III: DOJ’S CLARIFICATIONS ON THE DATA SECURITY

IMPLEMENTATION OF THE PGD 08-04 PROCUREMENT GUIDE ........ 37


APPENDIX IV: EOUSA’S RESPONSE.................................................. 39


APPENDIX V: OFFICE OF INSPECTOR GENERAL ANALYSIS AND

SUMMARY OF ACTIONS NECESSARY TO RESOLVE THE REPORT........45

   AUDIT OF THE EXECUTIVE OFFICE FOR UNITED STATES

     ATTORNEYS’ LAPTOP COMPUTER AND ELECTRONIC

      TABLET ENCRYPTION PROGRAM AND PRACTICES


                                  INTRODUCTION


       Encrypting laptops used by EOUSA and United States Attorney’s Office
(USAO) employees, contractors, and subcontractors is essential to the
security of the information that is processed on those machines. The
Executive Office for United States Attorneys (EOUSA) Information Systems
Security Staff is responsible for ensuring that EOUSA’s IT systems, including
those used by the USAOs, comply with all applicable laws and regulations;
assisting the USAOs with information systems security needs; protecting
USAO and EOUSA Information Systems data from unauthorized disclosure;
and managing other IT security responsibilities, such as cyber incident
response.

Laptop Encryption Policy Within DOJ

      DOJ Order 2640.2F, issued in November 2008, established the laptop
and data media encryption policy for the Department. 2 Chapter 2, section
12 states that “information on mobile computers/devices (for example,
notebook computers, personal digital assistants) and removable media shall
be encrypted using FIPS 140-2 validated or NSA [National Security Agency]
approved encryption mechanism.” 3

Laptop Encryption Policy for Contractors

     Contractors and subcontractors who use equipment accessing DOJ
systems or containing DOJ data are subject to DOJ Procurement Guidance
Document (PGD) 08-04, Security of Systems and Data, Including Personally

       2
          The DOJ Order 2640.2F establishes uniform policy, responsibilities and authorities
for protection of Information Technology systems that store, process or transmit the
Department information.
       3
         The National Institute of Standards and Technology (NIST) issued Federal
Information Processing Standards (FIPS) 140-2 “Security Requirements for Cryptographic
Modules.” Modules validated as conforming to FIPS 140-2 are accepted by the U.S. Federal
Agencies for the protection of sensitive information.


                                             1

Identifiable Information. PGD 08-04, issued in March 2008, contains a
security clause governing the use of laptops by contractors that must be
included in all current and future contracts where a contractor handles “data
that originated within the Department, data that the contractor manages or
acquires for the Department, and/or data that is acquired in order to
perform the contract and concerns Department programs or personnel.” In
addition, the contractor must comply with all security requirements
applicable to Department systems, such as DOJ Order 2640.2F. The use of
contractor-owned laptops or other media storage devices to process or store
data covered by the clause is prohibited until the contractor provides a letter
to the contracting officer certifying that the nine specific requirements
related to the security of laptops and other media storage devices are
met. See Appendix II for a complete listing of these requirements.

      PGD 08-04 also required that all Department contracts that were
already in existence as of the March 2008 issuance of the guidance be
modified to include the applicable security clause within 60 days. After
60 days, laptops or devices not covered by certification letters could not be
used on DOJ contracts. According to PGD 08-04, “a request for a waiver
from the requirement to include these clauses, or any deviations from the
language of these clauses (except those that are more stringent), must be
made in writing to the DOJ Senior Procurement Executive.” It further states
that “permission for a deviation or waiver will only be granted in unusual
circumstances.”

      A memorandum issued by the Justice Management Division (JMD) in
June 2008 updated the above requirements and allowed a 60-day extension
to implement PGD 08-04. 4 The June 2008 memorandum reiterated the
protections set forth in the earlier March memorandum.

      The June memorandum also referenced OMB M-07-16 and OMB
M-06-16, which include the requirement to report PII-related incidents to
US-CERT and requires that all data on mobile devices be encrypted unless
the data is determined, in writing by the designated official, to be



       4
         Senior Procurement Executive, Justice Management Division, memorandum for
bureau procurement chiefs and executive officers, Implementation Guidance Regarding
Security of Systems and Data, Including Personally Identifiable Information, June 17, 2008.



                                             2

non-sensitive. 5 6 The June 2008 memorandum also provided clarifications
regarding: (1) encryption-related requirements; (2) certification of data
extracts; (3) publicly available or previously released data; (4) the
identification of compensating controls and plans of action and milestones;
and (5) micro purchases. 7 8 9 See Appendix III for a complete listing of the
clarifications.

      Components can request a waiver from JMD for any of the June 2008
memorandum requirements that it has not or cannot meet. Such requests
should include the following information:

       1. The contract or contracts for which the waiver is being sought.

      2. The type and amount of data involved in the contract or contracts,
including the sensitivity of the data and whether PII is involved.

      3. Which security requirements cannot be met and the reason(s) the
contract or contracts cannot comply with the security requirements.




       5
         OMB M-07-16: Deputy Director for Management, Office of Management and
Budget, memorandum to heads of executive departments and agencies, Safeguarding
Against and Responding to the Breach of Personally Identifiable Information, May 22, 2007.
OMB M-06-16: Deputy Director for Management, Office of Management and Budget,
memorandum to heads of departments and agencies, Protection of Sensitive Agency
Information, June 23, 2006.
       6
          United States Computer Emergency Readiness Team (US-CERT) is the Federal
security incident handling center located within the Department of Homeland Security. It
was established with the purpose of coordinating the response to security threats from the
Internet for the nation.
       7
        Compensating controls are controls intended to supplement/enhance ineffective or
weak controls to reduce the associated risks.
       8
         Plan of Action and Milestones is a document that identifies tasks needing to be
accomplished. It details resources required to accomplish the elements of the plan, any
milestones in meeting the tasks, and scheduled completion dates for the milestones.
       9
         According to the JMD Purchase Card Manual, in most cases the micro purchase
threshold is set at $3,000 for goods and services.


                                             3

      4. A statement of any factors that mitigate the risk of harm from the
contractors not meeting the security requirements, and whether there is an
alternative solution to DOJ security requirements.

      5. A statement of the time frame for which the waiver is needed, and
any steps or long-term solutions planned.

      6. If lack of resources is a reason for the need for a waiver, a brief
statement of the component's funding needs to address contractor data
security requirements.

       7. A statement that the component official making the request accepts
the risk of harm that could result from the contractor not meeting the
security requirements, given the need for the contract or contracts.

EOUSA’s Use of Contractors for Litigation Support

       EOUSA uses several types of contractors for litigation support,
including paralegals and expert witnesses. Contractors for litigation support,
referred to as Mega-3 contractors, often work onsite in EOUSA and USAO
offices using DOJ equipment, whereas expert witnesses, known as OBD-47
contractors, tend to work from offsite locations and use their personal
computer equipment. All contractors are expected to follow PGD 08-04 or a
current data security waiver for PGD 08-04.

       At the USAO sites we visited, there were only two Mega-3 contractors
in use and they both worked onsite. EOUSA’s Office of Chief Information
Officer (OCIO) and Contracting Office officials told us that because their
Mega-3 contractors only process DOJ data onsite at EOUSA and USAO
offices, they do not need to meet the Civil Division data security waiver
requirements. We agree with EOUSA in this instance.

      OBD-47 contractors perform services such as expert analysis,
preparation for testimony, and litigation consulting for USAOs, and often
perform these services offsite. The contractors often receive case
information in printed documents or on flash drives or compact
disks. Because the risk of data loss increases when using such media and
hard copy documentation, it is essential that these contractors comply with
data security requirements when processing information on personal
equipment offsite.


                                       4

OIG Audit Approach

       The objectives of our audit were to determine whether EOUSA
complies with DOJ policy regarding: (1) the use of whole disk encryption on
employee, contractor, and subcontractor laptops processing sensitive and
classified information; and (2) laptop encryption procedures for contractors
and subcontractors.

       To accomplish our objectives, we interviewed personnel and inspected
equipment at EOUSA headquarters and six USAOs to determine whether
equipment was properly encrypted, and to assess the effectiveness of
policies and procedures related to encryption policy development, incident
response, data security, and deployment practices. 10

       In addition, we met with the USAO procurement staff responsible for
finalizing contractual agreements between expert witnesses and attorneys;
legal assistants responsible for oversight of litigation support services; and
expert witnesses and litigation contractors regarding contractual security
requirements for laptop computers. We also reviewed EOUSA’s efforts to
safeguard DOJ data on other mobile devices such as electronic tablets.
Appendix I contains a more detailed description of our audit objectives,
scope, and methodology.

Previous Audits on Laptop Encryption Programs and Practices

        On October 3, 2008, the Office of the Inspector General (OIG) received
a Department of Justice Computer Emergency Readiness Team (DOJCERT)
alert indicating that two unencrypted laptop computers were stolen from the
offices of a consulting firm in Washington, D.C., that was performing
litigation support work for the Civil Division. 11 The stolen laptops included

       10
           The six USAOs that we judgmentally selected included an office from each of the
four USAO size categories: (1) District of Maine (small), (2) Eastern District of Wisconsin
(medium), (3) Eastern District of North Carolina (medium), (4) Western District of
Washington (large), (5) Southern District of Florida (extra-large), and (6) Eastern District of
Virginia (extra-large). We inspected laptops and electronic tablets at each location, with the
exception of the Eastern District of Virginia, where we only inspected classified laptops.
       11
           A DOJCERT alert is a notice that DOJCERT sends to components on pressing IT
security issues such as network vulnerability.



                                              5

Personally Identifiable Information (PII) of Civil Division attorneys, the
consultant’s employees, and plaintiffs, as well as potentially sensitive case
information in support of the government’s defense. As a result of this
incident, the OIG initiated an audit of the Civil Division’s Laptop Encryption
Program and Practices, and our audit report was issued in July 2009. 12

      The July 2009 report concluded that the Civil Division complied with
Department requirements by ensuring that its own laptop computers were
encrypted to protect Department data. However, this audit also found that
the Civil Division’s efforts to ensure contractor safeguards over Department
data on laptop computers owned by Civil Division contractors,
subcontractors, and vendors needed significant improvement. Specifically,
we found that an inventory of contractor laptops used to process
Department data was not maintained, a large percentage of these laptops
were not encrypted, and contractors had not received notification of
Department laptop encryption requirements. We made seven
recommendations to the Civil Division to enhance its safeguards over
Department data on laptop computers. The Civil Division has implemented
corrective actions to address the recommendations, which have been closed.

      In March 2010 the OIG issued an audit of the Criminal Division’s
Laptop Encryption Program and Practices. During this audit, we tested for
encryption on 40 of the 799 laptop computers owned by the Criminal
Division. We found that 10 laptop computers did not have encryption
software and 9 of the 10 did not have Windows passwords enabled, as
required by Department policy. All of the unencrypted laptops, which were
deployed to the Criminal Division’s International Criminal Investigative
Training Assistance Program, contained sensitive Department data. In
addition, we determined that at least 43 laptop computers did not comply
with Department standards and Criminal Division requirements for laptop
security settings. Our audit also found that seven of the nine contractors
tested had processed sensitive Department data on laptops that were not
encrypted.

      The March 2010 report also identified weaknesses in the oversight of
data security policies for the Criminal Division’s contractors. The two
contracts under which most litigation support contractors were hired did not

       12
         U.S. Department of Justice Office of the Inspector General, The Civil Division’s
Laptop Computer Encryption Program and Practices, Audit Report 09-33 (July 2009).


                                             6

have the required security clause requiring encryption, and the Criminal
Division had not implemented alternative controls to compensate for the
contracts’ deficiencies. We made 10 recommendations to the Criminal
Division to enhance its safeguards over Department data on laptop
computers. The Criminal Division has taken corrective actions to address
the recommendations, which have been closed.

      In April 2010, the OIG issued a memorandum to the Assistant
Attorney General for Administration to inform him of the findings in the
above mentioned OIG audit reports and to recommend that the Department
re-emphasize the need for components to adhere to the Department’s
encryption policies for all laptop computers used to process Department
data, including laptops used by contractors. Subsequently, in May 2010, the
Department’s Chief Information Officer (CIO) issued a memorandum to all
component CIOs on the DOJ Data at Rest Program Implementation. 13 This
document cited DOJ and Office of Management and Budget (OMB)
encryption requirements for employees and contractors, and informed the
component CIOs that recent audits conducted by the OIG had revealed
instances of deficiency in meeting these mandates.




      13
          Chief Information Officer, Department of Justice, memorandum to component
Chief Information Officers, Department of Justice Data at Rest Program Implementation,
May 19, 2010.



                                            7

           FINDINGS AND RECOMMENDATIONS

EOUSA’s Efforts to Ensure Safeguards Over DOJ Data on
Laptop Computers and Electronic Tablets Need
Improvement

       We found that 111 of the 120 EOUSA-owned laptops we
tested that were used for unclassified processing were
encrypted, 6 were not encrypted, and we could not determine
the encryption status for 3 of the laptops. The six unencrypted
laptops were used for special purposes such as jury use, use by
visiting EOUSA employees, and the production of employee
identification cards, but had not been labeled as such.

      We reviewed three encryption monitoring scans completed
by EOUSA for unencrypted laptops. We found that the first two
scans identified approximately 60 unencrypted laptops that
EOUSA subsequently encrypted in a timely manner. The third
scan, however, identified eight unencrypted laptops whose
encryption status has gone unaddressed for over a year.

       In addition, we determined that EOUSA’s official inventory
of computer equipment, including laptops, was incomplete,
contained inaccurate data entries, and was subject to delays in
updating information. We further determined that EOUSA did
not sufficiently track and monitor laptops used for classified
processing. Our testing of two classified laptops and three
classified hard drives for encryption determined that one laptop
and one hard drive were not encrypted, and that two of the hard
drives were inoperable. We also found that EOUSA is using
more than 1,000 electronic tablets as part of its pilot program
that do not fully comply with JMD waiver requirements, are not
adequately monitored, and lack sufficient policies to minimize
security risks.

      We also reviewed EOUSA’s procedures for contractor use
of DOJ data and found that, despite a DOJ requirement that
external contractors’ laptops must be encrypted, EOUSA allowed
contractors to use unencrypted equipment, relying on a “verbal
waiver” extension from JMD. JMD officials disagreed that a


                                8

       “verbal waiver” had been granted. EOUSA also failed to confirm
       that the unencrypted equipment met the conditions set out in
       the expired waiver. Finally, we found that the oversight of
       contractor data security is inconsistent among USAOs, increasing
       the risk of DOJ data loss.

Laptop Computers and Electronic Tablets Owned by EOUSA

Encryption Requirements and Encryption Process

       DOJ Order 2640.2F Chapter 2 Section 12, Protection of Mobile
Computers/Devices and Removable Media, notes that “information physically
transported outside of the Department’s secured physical perimeter is more
vulnerable to compromise. The intent of this policy is to compensate for
protections not provided by physical security controls when information is
removed from the component location.” The Order therefore requires that
information on mobile computers/devices (notebook computers, personal
digital assistants) and removable media must be encrypted using FIPS 140-2
validated or an NSA-approved encryption mechanism. In addition, the Order
requires DOJ components to ensure that all security related updates are
installed on mobile computers and devices.

       EOUSA manages the encryption program for both EOUSA and the
USAOs. In 2012, an EOUSA official stated that EOUSA planned to upgrade
its personal computers and laptops throughout EOUSA and the USAOs, and
the projected total number of laptops after their refresh would be 8,080. 14
During this computer refresh, all new laptops were expected to be encrypted
as part of the imaging process. 15

      We found that EOUSA currently uses CheckPoint encryption software,
formerly known as PointSec, instead of the Department’s approved
encryption software, GuardianEdge. CheckPoint does meet the FIPS 140-2
requirement of the DOJ Order, and according to EOUSA officials, CheckPoint
offers implementation and performance advantages such as volume-based

       14
            As of July 2013, the total number of refreshed laptops was 7,412.
       15
          Imaging is the process of copying a computer’s hard disk content to another
computer. This is often used for a speedy and standardized installation to a large group of
computers so that all the imaged computers have the same hard disk content and software
configurations.


                                               9

versus file-based encryption and centralized management software
architecture. However, EOUSA is currently paying for both CheckPoint and
GuardianEdge. 16 Although JMD is aware of EOUSA’s desire to continue using
CheckPoint, there is currently no waiver in place regarding its use.
Therefore, we recommend that EOUSA either use the Department’s
encryption solution or obtain a waiver for the use of CheckPoint encryption.

       Each USAO System Manager is responsible for encrypting the laptops
at its location. The encryption begins during the installation of EOUSA’s
server-based image and continues running in the background until the
installation is complete. However, there is no documented confirmation that
the encryption process is complete. Instead, we were told that some USAOs’
IT staffs may perform a visual check on the encryption status, but this
process is neither consistent nor mandatory. This may result in laptops
being used without the hard drive being fully encrypted. Therefore, we
recommend that EOUSA and USAOs should verify and document that full-
disk encryption is installed on all laptops, including the classified laptops in
accordance with DOJ policy, such as using a checklist during the imaging
process.

Laptop Encryption Testing

      In order to verify full disk encryption on laptops, we tested a total of
120 unclassified and 2 classified laptops, as well as 3 classified hard drives
from EOUSA headquarters and the 6 districts we visited. 17 Our review
consisted of verifying that full disk encryption was present on each laptop,
including the date of encryption.


           16
           According to EOUSA, Checkpoint maintenance combines several products so a
specific cost for each product is not readily available, but EOUSA officials estimated that the
cost of CheckPoint encryption software is about $30,000. According to JMD, EOUSA paid
about $28,000 for its share of the GuardianEdge software to the Department in 2012 in
addition to the money it paid for CheckPoint. JMD requires all components to share the cost
of Guardian Edge.
           17
                We tested unclassified laptops from the Eastern District of Wisconsin, Western
District   of   Washington, Eastern District of North Carolina, Southern District of Florida, and
District   of   Maine, and classified laptops from the Eastern District of Virginia and Western
District   of   Washington. The three classified hard drives that we tested at the Western
District   of   Washington were assembled using two classified laptop shells for testing.



                                                   10

       Of the 120 unclassified laptops in our sample, we were able to verify
that 111 laptops were encrypted. However, we were unable to determine
the date of encryption for 9 of those 111 laptops, either due to incomplete
logs or because an older version of PointSec encryption that did not log the
date of encryption was used. For the remaining nine laptops, we were
unable to determine the encryption status of three laptops because two did
not have a hard drive to test and one laptop had been decommissioned with
its barcode removed. We determined that the other six laptops were
unencrypted and dedicated for special purposes, such as jury use, use by
visiting employees, and for an employee identification station. None of
these six laptops, however, were labeled to identify their special purposes,
nor were there policies that explicitly limited their use. Therefore, we
recommend that EOUSA develop policies on the use of non-encrypted
laptops for special use if such laptops are deemed necessary, and label these
laptops accordingly.

       We tested two classified laptops and three classified hard drives from
the sites we visited for encryption testing. We determined that one of the
laptops was encrypted, one laptop and one hard drive were not encrypted,
and the remaining two hard drives were inoperable. At one site, the
unencrypted laptop was the result of an unsuccessful encryption process and
the status of the encryption was not checked once completed, so the
unsuccessful encryption went undetected. At another site, the IT staff told
us that the unencrypted hard drive was very old, had not been used for
several years, and had not been encrypted because the staff had begun the
process of excessing the laptop. In our judgment, these are two examples
of preventable situations where the security of data could have been
properly safeguarded had verification of the encryption and DOJ order for
full-disk encryption been followed. For example, if EOUSA had subjected
these laptops to the Department’s Security Authorization process, the
vulnerabilities would likely have been remedied. 18



       18
           Security Authorization, previously known as Certification and Accreditation (C&A),
is the process used to implement information security by determining the security posture,
evaluating risks, and developing corrective actions to deficiencies of a system. The
Authorization Official reviews the Security Authorization Package of the system, which
contains evidence including, but is not limited to, the system security plan, security
assessment report, plan of action and milestones, and the Security Authorization
memorandum.


                                             11

Encryption Installation Records Not Maintained

      DOJ Order 2640.2F Information Technology Security, Audit and
Accountability, Chapter 1, Section 5, states that DOJ components should
create, protect, and retain IT system audit records to the extent needed to
enable security monitoring, analysis, investigation and reporting of unlawful,
unauthorized, or inappropriate IT system activity.

      There are two types of controls to identify unencrypted laptops:
(1) encryption status checks of lost laptops and (2) periodic encryption
status scans of network laptops.

      Encryption Status Checks of Lost Laptops

      The EOUSA Security Operations Center (SOC) investigates and
confirms incident information. For a lost laptop, the SOC may confirm with
the encryption team at EOUSA the encryption of the laptop. However, we
found that the SOC did not always verify the encryption status of lost
laptops, nor did it record its verification of encryption with the EOUSA
encryption team on all tickets reported on lost laptops. 19 Therefore, we
were unable to determine if this verification of encryption is consistently
completed. We recommend that EOUSA document encryption verification in
all EOUSA incident response tickets and disclose the encryption status to the
Justice Security Operations Center (JSOC). 20 JSOC’s Incidence Response
Plan handbook states that “the implications of the loss can extend beyond
the scope of the data items that have been lost, and can lead to additional
unauthorized disclosures, classified spills, or financial losses.“ 21 The
Incidence Response Plan handbook requires components to report the
encryption status of lost data. Whether the data on the lost IT device is
encrypted is an important piece of information to help assess the severity of
the data loss.


      19
           A ticketing system uses electronic files to record incident information.
      20
          JSOC monitors and protects the IT environment for the Department, and provides
leadership and guidance to all DOJ components in the areas of incident response. JSOC
assists components with the reporting, monitoring, and resolution of their incidents, and
acts as the main reporting source to US-CERT based on US-CERT’s guidelines.
      21
           DOJ OCIO, Computer System Incident Response Plan, Version 1.6, January 2012.


                                              12

      We reviewed the completeness of reporting from EOUSA SOC to JSOC
and found that during the period between January 1, 2011, and
January 18, 2012, 2 of 18 EOUSA incidents did not have a corresponding
DOJCERT number and 6 DOJCERT tickets did not appear to have an EOUSA
incident number. We found that for the two EOUSA tickets that did not have
the DOJCERT number, one was for a laptop destroyed in a vehicle fire and
deemed not necessary to report to DOJCERT, and the other involved a lost
laptop that was found more than 4 months later. Any lost DOJ IT device
containing data must be reported to JSOC within 1 hour from discovery of
the loss. Therefore, the lost laptop, should have been reported to DOJCERT
and issued a corresponding DOJCERT number. The six DOJCERT tickets that
did not appear on EOUSA’s SOC incident list were reported during the
transition between the EOUSA helpdesk monitoring incidents to the EOUSA
SOC reporting incidents. Those six incidents were either recorded in the
helpdesk ticketing system or reported directly by the EOUSA SOC manager
to DOJCERT.

      We also reviewed the 40 tickets received by DOJCERT from EOUSA
regarding the status of 29 lost laptops, 2 lost hard drives, and 9 lost
electronic tablets between October 1, 2010, and July 31, 2012, and found
that only 1 ticket noted the encryption status. Therefore, we were unable to
determine the encryption status of the 29 lost laptops, 9 lost electronic
tablets, and 1 lost hard drive because encryption status was not consistently
recorded.

      Periodic Status Scans for Encryption

       EOUSA also monitors computer encryption compliance by periodically
reviewing network computer encryption status. To review the status, a
report is run by an Information Systems Security (ISS) staff member from
System Center Configuration Manager (SCCM) on an ad-hoc basis to detect
the disk encryption status of computers on the network. 22 There are no
policies regarding the frequency, retention, or management of the scan.

     To determine the effectiveness of the encryption monitoring program,
we reviewed a sample of the encryption monitoring work completed by ISS.

      22
       System Center Configuration Manager (SCCM) is a Microsoft network
management tool that provides services such as software deployment, compliance settings
management, and assets management of servers, desktops, laptops, and mobile devices.


                                          13

We obtained the encryption audit reports for the last two reviews conducted
as of April 20, 2012, which took place on November 23, 2011, and April 5,
2012, and we assessed the status of the incident tickets for each district
office. These tickets, issued by the SOC per district, may encompass
multiple incidents of non-compliance with encryption requirements on
multiple pieces of equipment.

       The November 23, 2011, scan included 37 tickets for 72 laptops and
the April 5, 2012, scan included 28 tickets for 41 laptops. In order to
determine if laptops identified as unencrypted in the April scan had been
encrypted, we requested an additional scan, which occurred on
April 23, 2012. The April 23, 2012, scan identified 25 laptops as
unencrypted, which included 17 laptops that had already been identified in
the April 5, 2012, scan and 8 newly identified unencrypted laptops.

       We reviewed the 65 incident tickets from the first two scans from
November 2011 and April 2012 and found that they had all been closed
because: (1) the laptops were found to be properly encrypted and may
have just been a false positive or (2) encryption software on laptops that
were unencrypted was reinstalled. Although the length of time between
ticket issuance and ticket closure varied from 1 week to over 4 months,
most tickets were closed within 2 weeks. The 65 tickets cover a total of 113
laptops and we found that approximately 60 of the 113 laptops were
confirmed by the districts to be unencrypted. These laptops, which should
have been identified during the laptop imaging process, posed a data
security risk when they were unencrypted.

       In addition, in May 2012 we followed up with EOUSA officials about the
eight remaining unencrypted laptops identified in the third scan dated
April 23, 2012, and learned that the scan results had not been sent to the
EOUSA SOC, and that no further follow-up had been conducted by ISS on
these laptops. As of July 2013, ISS had still not sent the scan results of
these eight unencrypted laptops to the EOUSA SOC for ticket issuance in
order to mitigate the security risks posed by these laptops. We contacted
EOUSA in July 2013 to determine the status of these laptops and were told
that seven of the eight laptops had been disposed of in July 2012 during the
laptop refresh, and that one laptop had been sent back to the vendor for
replacement in May 2012. Due to a lack of communication and information
sharing between ISS and the EOUSA SOC, these eight laptops were in use in
the field, unencrypted for several months, increasing the risk to security.


                                     14

      To improve data security and help ensure that laptops are encrypted,
we recommend that EOUSA complete encryption scans on a routine basis
and timely follow up on results of scans.

Laptop and Electronic Tablet Inventory

      Office of Management and Budget (OMB) Circular A-130 requires that
a complete inventory of information resources, including personnel,
equipment, and funds devoted to information resource management and
information technology, be maintained to an appropriate level of detail.

       EOUSA’s official inventory for tracking laptops and electronic tablets is
maintained using JMD’s Unicenter Asset Portfolio Management (UAPM). 23
However, EOUSA and some USAOs also maintain separate inventories for
local use using Excel spreadsheets. As a result, in addition to analyzing
EOUSA’s UAPM inventory file, we also requested and analyzed inventories
from five USAO offices. We also analyzed additional information, such as
location information, about laptops from SCCM and about electronic tablets
from a mobile device management tool. 24

       USAO district offices are only authorized to order laptops and
electronic tablets from EOUSA’s OCIO Store. 25 Unauthorized laptop models
are detected through network scans by EOUSA and flagged for disposal.
When a district receives new laptops, each item is required to be entered
into UAPM by EOUSA’s Assistant Property Custodian and then sent to the
district System Manager who is responsible for imaging the machine and
assigning it to a particular person. An Evaluation and Review Staff from
EOUSA performs a review on a yearly basis to spot check a sample of

       23
          EOUSA’s UAPM inventory contains only unclassified laptops. We discuss classified
laptops and their inventories later in this section.
       24
         This mobile device management tool can implement and enforce policies on
mobile devices. EOUSA uses this tool to manage electronic tablets.
       25
           The EOUSA OCIO Store is an intranet website operated by the OCIO’s Office
Automation Staff, where EOUSA and USAO management and procurement officials can
order accredited IT systems, such as desktops, laptops, and electronic tablets. The intent of
the store is to provide a simplified method to procure approved hardware, leverage the
aggregate buying power, ensure USAOs procure accredited systems, and ensure USAOs
receive standard equipment.



                                             15

districts for resource and management compliance, including inventory
management. In addition, when an item is excessed, USAOs request the
removal of the item from UAPM. However, staff at some of the USAOs we
visited informed us that the approval process for a disposal can take from 6
to 12 months and the actual disposal process itself may also take several
months to complete. Therefore, USAO property records may not correctly
reflect the status of disposed property.

       We determined that obtaining an accurate number of laptops and
electronic tablets from a system-generated listing from UAPM was
problematic because there were multiple inconsistencies in the UAPM list,
including the incorrect classification of items, duplicate entries, and
incomplete and missing information. We also found delays in the entry and
removal of inventory items, which caused inconsistencies in the inventory
totals. In addition, our review of local USAO inventories found that while
these inventories may be more current, they too included duplicate,
incomplete, and inaccurate information, such as multiple barcodes for the
same laptop.

       Our analysis of a May 2012 UAPM listing required that we remove
duplicate entries and correct device misclassifications, such as desktop
computers classified as laptops. We determined that the total number of
EOUSA laptops and electronic tablets was 10,790 and 166, respectively. In
comparison, our review of the mobile device management tool file, which
tracks electronic tablets, listed the total number of electronic tablets at
1,044, resulting in a material difference between the inventory information
in UAPM and in the mobile device management tool of 878 electronic tablets.
We determined that the discrepancies in the number of electronic tablets
were caused by electronic tablets being identified in UAPM as computers,
computer organizers, computer tablets, and laptops rather than electronic
tablets; not all of these machine types were included in the UAPM file we
analyzed. As a result, we selected the mobile device management tool data
of 1,044 electronic tablets for our electronic tablet analysis, as it was more
reliable. 26




       26
           As of July 18, 2013, according to the mobile device management tool, the
electronic tablet inventory was 2,003.



                                            16

      In addition, our review of UAPM found listings for 14 laptop computers,
the purchase of which is prohibited by EOUSA’s laptop purchasing policy. 27
EOUSA officials stated that they believed these were procured before
PortfolioStat – an agency-wide IT portfolio review - was in place, and that
this PortfolioStat process should give EOUSA better insight into its IT
procurements. 28 Nevertheless, these laptops may pose a risk to data
security because they do not have Security Authorization and there are no
security policies in place for monitoring their use. Therefore, we recommend
that EOUSA identify unapproved laptops and remove them from use.

       EOUSA officials told us that the UAPM does not keep an inventory of
classified laptops. Therefore, we spoke with staff from EOUSA’s Security and
Emergency Management Office (SEMO) to discern how classified laptops are
tracked. SEMO staff informed us that it tracks the location of classified
laptops using a Microsoft Excel spreadsheet. We reviewed the inventory that
SEMO staff provided and verified that the 24 classified laptops it listed were
not included on the UAPM. While inspecting the two classified laptops and
three classified hard drives as part of our encryption testing, however, we
noted that one of the laptops was not listed on the SEMO classified laptop
inventory spreadsheet. SEMO staff explained that the spreadsheet is
updated when the USAOs contact their staff with changes in their classified
laptop inventory and when EOUSA performs its annual “Call-Out” in which
the USAOs are contacted to identify their classified laptops. This “Call-Out”
process was described by SEMO staff as ineffective because some of the
USAOs did not reply back to the “Call Out.”

       We also found that 23 of the 24 laptops listed for classified processing
have not received a Security Authorization within the last 3 years as
required by the Department security process. EOUSA’s SEMO staff explained
that it currently has no process for the certification of older classified laptops
       27
          We gathered further information regarding 3 of the 14 laptops listed on the
inventory. The three USAOs informed us that the laptops were not encrypted and stored no
DOJ data. According to these USAOs, the laptops were used for video presentations.
       28
           To reduce low priority and duplicative IT investments, OMB issued memorandum
M-12-10 in March 2012, requiring agencies to, among other things, lead an agency-wide IT
portfolio review (i.e., PortfolioStat) to establish a baseline of commodity IT investments
(e.g., e-mail, mainframes and servers, financial systems), identify potential duplicative or
wasteful investments, and finalize plans to consolidate their portfolio or move to shared
services.



                                             17

that may not meet Department requirements, but told us that it will develop
a process in the future. EOUSA officials stated that the use of JCONS/TS has
diminished its need for classified laptops and its goal is to reduce the
number of classified laptops and standalone computers. In our judgment,
proper oversight of classified laptops is necessary to mitigate the risk of
classified data loss. Therefore, we recommend that EOUSA complete a
Security Authorization package (formerly known as Certification &
Accreditation package) for all classified laptops and standalone computers
and reauthorize them every 3 years in accordance with DOJ policy.

      We believe that EOUSA’s lack of encryption on some of its classified
devices, in addition to poor inventory management, allow for the potential
loss of classified information. Further, without formal and enforced Security
Authorization of classified laptops, EOUSA is not able to maintain appropriate
oversight to prevent the unauthorized disclosure, modification, or
destruction of classified information. We recommend EOUSA implement
procedures to ensure that accurate, current, and reliable information is
maintained in an official inventory for unclassified and classified equipment
to help EOUSA to ensure that all required laptops are encrypted and
deployed in compliance with DOJ policy.

EOUSA Electronic Tablet Pilot Program

      On July 28, 2011, JMD issued to EOUSA a waiver approving the use of
a manufacturer’s smartphone and electronic tablet mobile devices for a pilot
deployment program. The JMD waiver grants these mobile devices remote
access to the DOJ network. Currently, electronic tablets are encrypted with
a non-FIPS 140-2 compliant program through the manufacturer. Although
the initial waiver expired on March 30, 2012, JMD approved a new waiver on
May 24, 2012 on the use of up to 4,000 smartphone and electronic tablet
mobile devices. The new waiver is effective through September 30, 2013, to
allow time for the manufacturer to complete the required FIPS validation.
The waiver specifies the following conditions:




                                     18

      1. Devices connected to the DOJ infrastructure shall use the
      Department’s Trusted Internet Connection (TIC) and DOJ Connect
      infrastructure and be monitored by the Justice Security Operations
      Center. 29

      2. This deployment shall comply with DOJ Mobile Device Security
      Requirements, including Appendix A, the manufacturer’s mobile device
      operating system Secure Implementation Instructions. 30

      3. Prior to pilot deployment, the EOUSA Authorizing Official shall
      formally accept all documented risks associated with tools not yet FIPS
      140-2 validated.

      4. All aspects of this pilot program, especially the security risks and
      mitigation, must be properly described in EOUSA’s appropriate system
      security plan and included in all associated Security Authorization
      documentation.

EOUSA Compliance with Electronic Tablet Waiver Conditions

      We evaluated EOUSA’s compliance with the conditions specified by
JMD in the waiver and found that while EOUSA met some of the
requirements, it was not in full compliance with DOJ/EOUSA requirements.

      We interviewed JMD officials for clarification on the requirement that
the electronic tablets need to use the TIC because they are connected to the
DOJ infrastructure. We also spoke with EOUSA officials regarding the
connection of electronic tablets to both the DOJ Network and outside
networks. We were informed that to access the DOJ network, devices must
go through the TIC to be monitored. Electronic tablets use a VPN to access




      29
          DOJ Connect infrastructure is the Department’s remote access solution allowing
users to connect through a Virtual Private Network (VPN).
      30
        Appendix A of the DOJ Mobile Device Security Requirements provides the
Department’s configuration baselines for the manufacturer’s mobile device operating
system.



                                           19

the DOJ network, which also goes through the TIC. 31 However, this does not
address traffic that occurs outside the DOJ Network where the electronic
tablets can connect to the Internet directly for personal use. Although we
did not find evidence of inappropriate traffic outside the DOJ Network, we
believe that this should be more thoroughly addressed in policy and
guidance.

      Regarding the requirement that the waiver comply with DOJ Mobile
Device Security Requirements, including the manufacturer’s mobile device
operating system Secure Implementation Instructions, we found that EOUSA
does not fully comply with Appendix A, the manufacturer’s mobile device
operating system Secure Implementation Instruction from JMD, which
requires that all devices use a specified version number or higher of the
operating system. When reviewing the applications installed on electronic
tablets from the April 2012 mobile device management tool scan, we found
that the mobile operating system of the devices were not up to date. Out of
the total inventory of 1,044 electronic tablets, only 356 electronic tablets (34
percent) had the required operating system version or higher. Using devices
with out-of-date mobile operating system versions may pose a higher
security risk because older mobile operating system versions have more
security vulnerabilities. EOUSA informed us that because the users manually
update the electronic tablets, there is often a delay in the process.
According to Appendix A, devices that are not running the latest approved
versions should be restricted from connecting to DOJ services until they
have been updated.

       Finally, we found that EOUSA has not fully documented all aspects of
this pilot program. Specifically, the security risks and mitigation that must
be properly described in EOUSA’s system security plan and included in all
associated security authorization documentation was not present. While the
documentation does include information on the mobile device architecture, it
does not address security risks and mitigations, including those listed in
Appendix A. Instead, EOUSA relies on Rules of Behavior that do not address
issues that are specific to the mobile device operating system and the



       31
          A VPN uses shared public telecommunication infrastructure, such as the Internet,
to provide secure communication between two ends by using tunneling protocols, which
encrypt the data at the sending end and decrypt data at the receiving end. A VPN provides
secured access capabilities at a lower cost than the more expensive dedicated leased lines.


                                            20

system security plan, thereby leaving potential security risks unidentified
and unaddressed.

Electronic Tablet Policies and Procedures

       Electronic tablets used at EOUSA are to be purchased through EOUSA’s
OCIO Store and are manually set up by IT personnel with a core set of
applications. EOUSA uses a mobile device management tool to track and
monitor these devices. The mobile device management tool also issues
policies such as password and profile settings for the electronic tablet and
updates EOUSA on the status of electronic tablets whenever they are
connected to the EOUSA server, including their mobile operating system
versions and any applications installed.

       Electronic tablets enable users to download additional applications
from the manufacturer’s online application store. Although EOUSA’s
electronic tablets are pre-configured so that users have account access for
EOUSA-approved applications from the online application store, there is no
restriction that prevents users from downloading unapproved applications.
Applications that are not approved can be requested and must go through a
vetting process by EOUSA before being allowed to be downloaded.

      While several electronic tablet-specific policies exist, such as mobile
application approval and device loss and theft, we found that there is no
clear policy governing actions that USAO and EOUSA IT staff should take
when an employee leaves the organization, including when and if electronic
tablets should be removed from the mobile device management tool list
when electronic tablets are turned in from terminated users and reimaged
before being assigned to new users. We also found that there is no policy
regarding the consistent monitoring of electronic tablets, including the use of
authorized applications.

       In addition, while we found that EOUSA is capturing information from
the mobile management tool scan that can be used for monitoring electronic
tablets, it is not using the information for this purpose. For example, EOUSA
is not actively monitoring the use of unauthorized applications unless the
application is listed as unallowable by DOJ, such as Skype. During our
review of electronic tablets and the applications installed on the devices, we
found electronic tablets with unapproved applications including video games,
TV programs, or file editing software. While these applications go through
the manufacturer’s security process, they may nevertheless pose a risk to

                                      21

DOJ if they are not properly monitored and authorized. Therefore, we
recommend that EOUSA monitor and take action on electronic tablets with
unauthorized application downloads and with outdated versions of the
mobile operating system.

Electronic Tablet Password Testing

       We selected 12 electronic tablets for testing in 5 of the districts we
visited and EOUSA headquarters based on inventories provided by each site.
Our review consisted of verifying the password protection mechanisms on
the electronic tablets. Of the 12 electronic tablets we tested, 11 were
password protected using the manufacturer’s non-FIPS 140-2 compliant
software. We were unable to determine the status of one electronic tablet
as it was slated for destruction.

Electronic Tablet Risks and Observations

       As electronic tablets become more commonplace for business
purposes, proper precautions need to be taken in order to protect DOJ
information. The storage of DOJ information combined with a lack of FIPS
140-2 encryption, unapproved application usage, outdated mobile operating
system versions, and the potential absence of traffic monitoring may
increase the risk of improper or unobserved DOJ information dissemination.
EOUSA is currently using over 1,000 electronic tablets, and comprehensive
policies and procedures need to be in place to address the use of the
devices. EOUSA’s monitoring should be proactive to ensure that policies and
procedures in place are being followed, such as for unauthorized applications
or an out-of-date mobile operating system. Risks and any mitigating factors
should also be appropriately documented by EOUSA to confirm an
understanding of potential security issues and compliance with the electronic
tablet waiver. Therefore, we recommend that EOUSA develop
comprehensive security policies and procedures for monitoring and handling
electronic tablets.




                                     22

Laptop Computers Owned by Contractors and Subcontractors

OBD-47 Contractor Compliance with PGD 08-04

      PGD 08-04 requires that laptops must employ encryption using a FIPS
140-2 approved encryption solution. PGD 08-04 also states that the
contractor agrees that in the event of an actual or suspected breach of DOJ
data (such as loss of control, compromise, unauthorized disclosure, access
for an unauthorized purpose, or other unauthorized access, whether physical
or electronic), the contractor will immediately (and in no event later than
within 1 hour of discovery) report the breach to the DOJ Contracting Officer
and the Contracting Officer’s Technical Representative.

      On February 24, 2010, JMD granted EOUSA a limited, 12-month
waiver of PGD 08-04 to allow EOUSA time to comply with the above clauses
and implement an encryption solution. As a result, on February 24, 2010,
the USAOs received guidance from EOUSA to use a data security waiver for
OBD-47 contractors, including expert witnesses and litigation consultants
who, “in many cases, may be self-employed or have small staff, may not be
technologically savvy or have no in-house IT employees to enable
compliance with these clauses.” 32 The waiver eliminated the need for these
contractors to abide by PGD 08-04 when reviewing Personally Identifiable
Information (PII) of 25 or fewer individuals. However, if the contractor
would be reviewing PII of more than 25 individuals, the full requirements of
PGD 08-04, including encryption on contractors’ computers, was expected to
be enforced. In addition, the waiver required contractors to follow an
alternative set of data security procedures.

      On February 16, 2011, JMD sent a memorandum to EOUSA regarding
EOUSA’s request for an extension of the waiver. The memorandum
expressed concern that EOUSA was seeking another 12-month extension of
the waiver without making progress towards implementation of the
Department-wide encryption solution (GuardianEdge). However, JMD
granted a 3-month waiver extension, until May 17, 2011, pending receipt of
EOUSA’s plan for implementing the Department-wide encryption solution,

       32
           Assistant Director of Acquisitions Staff, EOUSA, memorandum to Contracting
Officers, Administrative Officers, Security Managers, Civil Chiefs, Criminal Chiefs, and First
Assistant U.S. Attorneys, Temporary Waiver of Security Clauses, February 24, 2010.



                                              23

including the timeframe for each phase of deployment of GuardianEdge over
the next year.

      On May 6, 2011, EOUSA’s OCIO office sent an e-mail to EOUSA staff
noting that a verbal conversation had taken place between JMD and EOUSA
regarding an extension of the waiver, and EOUSA subsequently informed the
USAOs that EOUSA had received a “verbal waiver” extension from JMD. As a
result, USAOs continued to implement this waiver for contractors processing
the PII of 25 or fewer individuals. However, when we asked JMD officials
about the waiver, they acknowledged that a discussion of the waiver had
been held but they disputed that a verbal extension had been granted. We
followed up with JMD again in September 2013 and were informed by the
JMD officials that JMD does not give out verbal waivers and that components
should follow the formal waiver application process as specified in the DOJ
Security Authorization Handbook. 33 Therefore, neither JMD nor we consider
the verbal waiver for PII of 25 or fewer individuals, as described by EOUSA,
to be an official extension of the waiver.

      In July 2013, JMD officials told us that EOUSA had received a waiver
from the Department dated February 11, 2013, allowing EOUSA to deviate
from PGD-08-04 with respect to its contractors. However, EOUSA operated
without a formal, written, or documented waiver in place for almost 2 years,
from May 17, 2011, to February 11, 2013.

     JMD granted the February 11, 2013, waiver through September 30,
2013, and stated:

      Given the unique circumstances, but recognizing the need to encrypt
      all sensitive data at rest and in transit, the waiver requested is granted
      based on the following conditions:

      •	 EOUSA will continue to use FIPS 140-2 encrypted solutions for
         transmitting case and investigation information via mail and email
         to their consultants and expert witnesses.




      33
          Department of Justice OCIO Information Technology Security Staff, Security
Authorization Handbook, V. 8.3, June 2011.


                                           24

     •	 By February 28, 2013, EOUSA will develop and submit contract
        policy changes that identify specific clauses that address data
        handling requirements for the consultants and expert witnesses.

     •	 EOUSA will research and test additional technical solutions for
        securing and sharing case and investigation information with all of
        their consultants and expert witnesses. These include secure file
        hosting services and digital rights management technologies.
        EOUSA should report back the outcomes of these efforts by
        September 30, 2013.

       Previously, EOUSA’s waiver eliminated the need for these contractors
to abide by PDG 08-04 when reviewing PII of 25 or fewer individuals. In
contrast, based on its language, we believe that the February 11, 2013,
waiver offers the same exemption from PGD 08-04 while not having the
limitation of PII of 25 or fewer listed among its conditions. The new waiver
requires EOUSA and USAOs to encrypt the data in transmission to the
contractors.

       On June 17, 2013, EOUSA communicated the current February 11,
2013, waiver to its District offices in an email. However, EOUSA specifically
stated in the email that there was no change from the current contracting
procedures for vendors handling electronically stored information containing
the PII of 25 or fewer individuals. In our opinion, EOUSA did not fully
communicate to its offices the conditions of the February 11, 2013, waiver
because it did not specify the new requirement that a FIPS 140-2 encryption
solution is to be used for transmitting case information to the contractors.
We recommend that EOUSA implement each of the conditions of the
February 11, 2013, waiver to ensure that all sensitive data are encrypted
between USAOs and their consultants and expert witnesses.

USAO, Expert Witness, and Litigation Consultant Compliance with Data
Security Requirements

      Each USAO maintains and manages its own contracts and contracting
process, including contractor oversight. Therefore, we were unable to
determine the specific number of contractors that USAOs employ. However,
EOUSA officials estimated that the total number of contractors and
subcontractors it oversees is in the thousands. We selected a sample of five
USAOs (Southern District of Florida, District of Maine, Eastern District of
North Carolina, Western District of Washington, and Eastern District of

                                     25

Wisconsin) and interviewed attorneys, contracting officers, and legal
assistants in order to evaluate USAO supervision of contractors’ waiver
compliance and data security.

      We found that there are inconsistent processes and a lack of formal
guidelines and requirements regarding: securing data for transmission to,
from, and between USAOs and the contractors, including whether
information should be encrypted and the appropriate methods of
transmission (such as compact discs or e-mails); who was responsible for
sending information or ensuring information was secured; and when to send
information and what circumstances under which information may be shared
before a contract is in place. Therefore, we recommend that EOUSA define
the roles of attorneys, legal assistants, and contracting officers within the
USAOs regarding contractor data security responsibility.

      We also found that the USAOs we visited, which at the time were
operating under the expired waiver described above, did not have a process
in place to determine whether the case data contained PII relating to 25 or
fewer individuals. Rather, it was generally assumed to be less than 25 PII
so the data security waiver would be applicable. 34

       We reviewed 82 contracts of various performance types for signed
data security waivers at the five USAOs we visited to determine whether
waivers were returned in a timely manner. We determined that 62 of the 82
(or 76 percent) contracts received a waiver. However, 23 of these 62
waivers (or 37 percent) were signed and sent back after the invoices for the
contract work were submitted, which does not provide reasonable
assurances that the contractors were fully aware of the data security
procedures before starting the contract work. Additionally, the collection
rate of the signed waivers at these five USAOs varied significantly, from 50
to 100 percent. Overall, it appears that each site managed contracts
differently regarding the enforcement of signing the data waiver and
performance of work after waiver signature. Therefore, there is inadequate
assurance from contractors before the start of the contracts that contractors



       34
          By comparison, the new February 2013 waiver requires encrypting all data in
transmission to the contractors; however, USAOs have not been instructed by EOUSA to
implement this condition of the new waiver. See the discussion in the previous section on
EOUSA’s implementation of the new waiver.


                                            26

are aware of, understand, and will comply with the requirements of the
waiver.

       We also interviewed a total of 32 expert witness and litigation support
consultants in the Eastern District of Wisconsin and the Western District of
Washington to assess their compliance with EOUSA data security
requirements. We found that these contractors provided services, using
their personal computer equipment, for a variety of professions, including
the medical professions of gerontological nurse practitioner, psychiatrist,
neurosurgeon, and interventional cardiologist. These medical contractors
have processed medical records on their personal computer equipment while
contracting for the Department.

      We interviewed contractors about anti-virus software, encryption,
password protection, the amount of PII and PII safeguarding, incident
reporting awareness, and the use of sub-contractors. We found that the
contractors received case information in multiple ways, such as printed
documents, flash drives, or compact discs, and often the information was
unencrypted. We also found that contractors did not always meet the
requirements in the expired waiver for anti-virus software, password
protection, and pass-through data security requirements to sub-contractors.
Some contractors also informed us that they had not been instructed on
data destruction requirements. While these requirements are not explicitly
stated in the new waiver, in our judgment they are sound business practices
to minimize DOJ data loss.

       While the USAOs need an efficient and expeditious process for hiring
contractors to provide litigation consultants and expert witness services,
they must simultaneously ensure that the process provides an appropriate
level of data security. Due to the large number of contractors employed by
the USAOs, the potential for data breaches is greatly increased when DOJ
policy is not followed. Therefore, the contract process should be closely
monitored and managed to minimize the risk of data loss and the associated
harm it will cause.

      We therefore recommend that EOUSA increase its oversight of
contractors to ensure that contractors: (1) are aware of and adhere to any
security provisions required by the USAOs prior to starting work; (2) receive
case information in an encrypted format; (3) implement sound business
practices such as anti-virus software, password protection, and data


                                     27

destruction when the case data are not needed; and (4) instruct the sub­
contractors about pass-through data security provisions.

Conclusion

      To ensure that all required laptops are encrypted and deployed in
compliance with DOJ policy, EOUSA needs to implement a more accurate
and reliable inventory for all laptops. In addition, EOUSA should create
appropriate policies and procedures to verify, validate, and monitor
encryption for the processing of both unclassified and classified laptops, as
well as electronic tablets, to minimize the risks that result from unwanted
exposure of DOJ data.

      We also found that EOUSA needs to strengthen its oversight of
contractors who use laptops to process DOJ data. Specifically, EOUSA
should implement each of the conditions of the February 11, 2013, waiver of
the requirements of PGD 08-04, including the requirement that all data
transmitted to contractors is encrypted. It should also take other steps to
strengthen contractor oversight at the USAOs, including ensuring that
USAOs receive reasonable assurances that contractors understand, are able
to implement, and have agreed to implement all applicable DOJ data security
requirements before receiving DOJ data and beginning contract work.

Recommendations

      We recommend that EOUSA:

      1. Use the Department’s encryption solution or obtain a waiver for the
         use of CheckPoint encryption.

      2. Verify and document that full-disk encryption is installed on all
         laptops, including the classified laptops, in accordance with DOJ
         policy, such as using a checklist during the imaging process.

      3. Develop policies on the use of non-encrypted laptops for special
         use if such laptops are deemed necessary, and label these laptops
         accordingly.




                                      28

 4. Document encryption verification in all EOUSA incident response

    tickets and disclose the encryption status to JSOC.


 5. Complete encryption scans on a routine basis and timely follow up
    on results of scans.

 6. Identify unapproved laptops and remove them from use.

 7. Complete a Security Authorization package (formerly known as
    Certification & Accreditation package) for all classified laptops and
    standalone computers and re-authorize them every 3 years in
    accordance with DOJ policy.

 8. Implement procedures to ensure that accurate, current, and
    reliable information is maintained in an official inventory for
    unclassified and classified equipment to help EOUSA to ensure that
    all required laptops are encrypted and deployed in compliance with
    DOJ policy.

 9. Monitor and take action on electronic tablets with unauthorized 

    application downloads and with outdated versions of the mobile

    operating system.


10. Develop comprehensive security policies and procedures for
    monitoring and handling electronic tablets.

11. Implement each of the conditions of the February 11, 2013, waiver
    to ensure that all sensitive data are encrypted between USAOs and
    their consultants and expert witnesses.

12. Define roles of the attorneys, legal assistants, and contracting
    officers within the USAOs regarding contractor data security
    responsibility.

13. Increase its oversight of contractors to ensure that contractors:
    (1) are aware of and adhere to any security provisions required by
    the USAOs prior to starting work; (2) receive case information in
    an encrypted format; (3) implement sound business practices such
    as anti-virus software, password protection, and data destruction
    when the case data are not needed; and (4) instruct the sub­
    contractors about pass-through data security provisions.

                                 29
                  STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations.

     Our evaluation of the EOUSA’s internal controls was not made for the
purpose of providing assurance on its internal control structure as a whole.
The EOUSA’s management is responsible for the establishment and
maintenance of internal controls.

      As noted in the Finding section of this report, we identified deficiencies
in the EOUSA’s internal controls that are significant within the context of the
audit objectives and, based upon the audit work performed, that we believe
adversely affect the EOUSA’s ability to ensure that DOJ data is appropriately
protected from unauthorized access, use, disclosure, disruption,
modification, or destruction.

       Because we are not expressing an opinion on the EOUSA’s internal
control structure as a whole, this statement is intended solely for the
information and use of the EOUSA and the Department of Justice. This
restriction is not intended to limit the distribution of this report, which is a
matter of public record.




                                        30

                   STATEMENT ON COMPLIANCE 

                  WITH LAWS AND REGULATIONS


       As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices to obtain reasonable assurance that the
EOUSA’s management complied with federal laws and regulations, for which
non-compliance, in our judgment, could have a material effect on the results
of our audit. The EOUSA’s management is responsible for ensuring
compliance with federal laws and regulations applicable to the information
security controls. In planning our audit, we identified the following laws and
regulations that concerned the operations of the EOUSA and that were
significant within the context of the audit objectives:

      •	 Senior Procurement Executive Procurement Guidance Document
         (PGD) 08-04,
      •	 Protection of Department Sensitive Information on Laptop and
         Mobile Computing Devices, DOJ Memorandum
      •	 OMB M-07-16,
      •	 OMB Circular A-130,
      •	 DOJ Order 2640.2F, and
      •	 DOJ IT Security Standards

       Our audit included examining, on a test basis, the EOUSA’s compliance
with the aforementioned laws and regulations that could have a material
effect on EOUSA’s operations. We interviewed key personnel within the
EOUSA and performed a physical review on select laptop computers owned
by EOUSA and contractors. Additionally, we interviewed a select group of
vendors contracted to provide litigation support services to the EOUSA.




                                     31

                                                              APPENDIX I

              OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

       The OIG performed this audit to assess EOUSA’s laptop computer
encryption program and practices. Specifically, the audit objectives were to
determine whether EOUSA complies with federal and Department of Justice
policies regarding: (1) the use of whole disk encryption on employee,
contractor, and subcontractor laptops that process DOJ sensitive and
classified information; and (2) laptop encryption procedures for contractors
and subcontractors providing litigation support services.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

       Our audit scope was an 11-month period, from December 2011
through October 2012. To assess EOUSA’s laptop computer encryption
program and practices, we interviewed EOUSA and United States Attorneys’
Office (USAO) personnel with responsibilities related to incident response,
encryption policy development, data security, and deployment practices. We
also interviewed JMD staff responsible for encryption policy development and
data security. In addition, we reviewed EOUSA laptop and electronic tablet
inventories, electronic tablet application scans, laptop encryption monitoring
scans, and incident response reports. We also performed follow-up
interviews and analyses from November 2012 to September 2013.

      Because USAOs vary in size - small (under 25 attorneys), medium
(25-44 attorneys), large (45-99 attorneys), and extra-large (100 or more
attorneys) - we judgmentally selected at least one USAO from each size
category, in addition to EOUSA, for our field work. The six USAOs we visited
were the: (1) District of Maine (small), (2) Eastern District of Wisconsin


                                     32

(medium), (3) Eastern District of North Carolina (medium), (4) Western
District of Washington (large), (5) Southern District of Florida (extra-large),
and (6) Eastern District of Virginia (extra-large).

       From a total population of 1,100 unclassified laptops at 5 of the 6
sites, according to local inventory lists, we randomly selected a sample of
120 laptops for full encryption installation testing. In addition, we tested a
total of 12 electronic tablets at EOUSA and USAO offices to determine if the
use of these electronic tablets was in compliance with current encryption
policy. We tested unclassified laptops from the Eastern District of Wisconsin,
Western District of Washington, Eastern District of North Carolina, Southern
District of Florida, and District of Maine. We tested two classified laptops
from the Eastern District of Virginia and three classified hard drives at the
Western District of Washington. The hard drives that we tested were
assembled using two classified laptop shells for testing. These non-
statistical sample designs do not allow projection of the test results to all
laptops and electronic tablets.

      We also identified a total of two classified laptops and three classified
hard drives at the six sites we visited and reviewed them for encryption
status. Two classified laptops were in the Western District of Washington
and the three hard drives were in the Eastern District of Virginia.

       We also selected a sample of expert witness laptops to test and
considered the diverse work performed in support of litigation, such as
medical evaluations, economic analysis, and environmental surveys. In
addition, we interviewed USAO procurement staff, responsible for finalizing
contractual agreements between expert witnesses, about contractual
security requirements for laptop computers. Further, at five of the sites we
visited (Western District of Washington, Eastern District of Wisconsin,
Eastern District of North Carolina, Southern District of Florida, and the
District of Maine), we reviewed USAO contract documents for litigation
support services and interviewed attorneys and legal assistants regarding
the oversight of litigation support services. At the Western District of
Washington and the Eastern District of Wisconsin, we also interviewed 32
expert witnesses contracted to provide litigation support, to determine the
levels of data security compliance and oversight they received from USAOs.

     Finally, we met with the EOUSA Contracting Officer’s Technical
Representative and two Mega 3 contractors who work onsite at EOUSA and


                                       33

use EOUSA laptops. These two Mega 3 contractors did not process DOJ data
offsite, therefore there were no Mega 3 contractor laptops to test.




                                   34

                                                                  APPENDIX II

           DOJ Procurement Guidance Document 08-04,
      Contractor-Owned Laptop Security Requirements 35

      Section A of the PGD 08-04 memorandum lists the requirements for
the contractor-owned laptops to process or store DOJ data. They are as
follows:

      (1)	   Laptops must employ encryption using a FIPS 140-2 approved
             product;

      (2)	   The contractor must develop and implement a process to ensure
             that security and other applications software is kept up-to-date;

      (3)	   Mobile computing devices must utilize anti-viral software and a
             host-based firewall mechanism;

      (4)	   The contractor must log all computer-readable data extracts
             from databases holding sensitive information and verify each
             extract including sensitive data has been erased within 90 days
             or its use is still required. All DOJ information is considered
             sensitive information unless designated as non-sensitive by the
             Department;

      (5)	   Contractor-owned removable media, such as removable hard
             drives, flash drives, CDs, and floppy disks, containing DOJ data,
             must not be removed from DOJ facilities unless encrypted using
             a FIPS 140-2 approved product;

      (6)	   When no longer needed, all removable media and laptop hard
             drives shall be processed (sanitized, degaussed, or destroyed) in
             accordance with security requirements applicable to DOJ;

      (7)	   Contracting firms shall keep an accurate inventory of devices
             used on DOJ contracts;

      35
         Senior Procurement Executive, Department of Justice, memorandum to
component procurement chiefs, DOJ Procurement Guidance Document 08-04, Security of
Systems and Data, Including Personally Identifiable Information, March 20, 2008.


                                         35

(8)	   Rules of behavior must be signed by users. These rules must
       address at a minimum: authorized and official use; prohibition
       against unauthorized users; and protection of sensitive data and
       personally identifiable information; and

(9)	   All DOJ data will be removed from contractor-owned laptops
       upon termination of contractor work. This removal must be
       accomplished in accordance with DOJ IT Security Standard
       requirements. Certification of data removal will be performed by
       the contractor’s project manager and a letter confirming
       certification will be delivered to the CO within 15 days of
       termination of contractor work.




                                36

                                                                 APPENDIX III

          DOJ’s Clarifications on the Data Security
  Implementation of the PGD 08-04 Procurement Guide 36

      The Department’s June 17, 2008, memorandum from the Senior
Procurement Executive provided clarification on the implementation of data
security requirements, including PII for the PGD 08-04 Guidance. It states
that:

      (1)	   Any documents filed with or produced to the courts do not need
             to be encrypted, as courts will not accept encrypted data;

      (2)	   Documents that cannot be altered for "chain of custody" reasons
             need not be encrypted, but rather may be treated as evidence
             and controlled through delivery tracking;

      (3)	   Documents produced to opposing counsel generally needs to be
             protected in transit via encryption. Once documents are in
             opposing counsel's custody, they are no longer DOJ's
             responsibility;

      (4)	   As long as data extracts are still needed, there is no need to
             certify such need every 90 days;

      (5)	   If data is provided to a contractor on an encrypted thumb drive,
             hard drive, or laptop AND data is not downloaded to a personal
             computer or network, most requirements regarding system
             security, such as testing, will not apply;

      (6) 	 Data that is publicly available or that has previously been
            released (e.g., via FOIA) is presumed to be non-sensitive;

      (7) 	 OCIO is available to assist in identifying compensating controls
            and/or plans of action and milestones (POAMs) where
            appropriate; and

      36
          Senior Procurement Executive, Department of Justice, memorandum to
component procurement chiefs, Implementation Guidance Regarding Security of Systems
and Data, Including Personally Identifiable Information, June 17, 2008.


                                         37

(8) 	 Micro purchases are not covered by PGD 08-04 at this time;
      however, components should examine their controls for ensuring
      data security for those types of purchases.




                              38

                                                                                 APPENDIX IV
                                       EOUSA’S RESPONSE


                                                      U.S. Department of Justice
                                                      Executive Office for United States Attorneys



Office of the Director


950 Pennsylvania Ave., N.W.          (202) 252-1000
Room 2261, RFK Main Justice Bldg.
Washington, D.C. 20530


DATE:	            January 23, 2014

TO:	              Reginald F. Allen
                  Director, Computer Security and Information Technology Office
                  Office of the Inspector General

FROM:	            Norman Wong /S/
                  Deputy Director and Counsel to the Director
                  Executive Office for United States Attorneys

SUBJECT:	         Response to OIG Audit of EOUSA “Laptop Computer and Electronic Tablet
                  Encryption Program and Practices”


        The Executive Office for United States Attorneys (EOUSA) appreciates the audit
undertaken by the Department of Justice, Office of the Inspector General (OIG), regarding the
encryption of laptop computers and electronic tablets used by EOUSA and the 94 United States
Attorneys’ Offices (USAOs). The goal of the OIG audit was to assess whether laptops and
tablets used by USAO employees, contractors, and subcontractors contain adequate security
controls to protect sensitive data processed on those devices.

        EOUSA places a high priority on computer security and has established wide-ranging
procedures to safeguard United States Attorney information technology (IT) assets. To that end,
the Information Systems Security Staff, in EOUSA’s Office of the Chief Information Officer
(OCIO), coordinates encryption protocols and security training for all USAO personnel
nationwide. EOUSA’s Security Operations Center in Columbia, SC, provides 24/7 intrusion

                                                  39

detection monitoring and vulnerability management. And each USAO has a Systems Manager
and District Office Security Manager available to coordinate security issues locally. EOUSA
places a commensurately high priority on the usability of IT assets so that they may be employed
most effectively by a wide range of geographically dispersed users – including attorneys, support
staff, joint task force personnel, litigative consultants and expert witnesses – and thereby best
achieve the success of the Department’s investigatory, prosecutorial, and litigation mission.

        With this framework in mind, we next address each of the 13 recommendations contained
in the OIG draft audit report. Id. at 26-27.

        Recommendation 1. Use the Department’s encryption solution or obtain a waiver for the
use of CheckPoint encryption.

        Response 1. EOUSA’s CheckPoint encryption solution complies with DOJ Order No.
2640.2F, “Information Technology Security,” because CheckPoint is FIPS 140-2 compliant.
Accordingly, no waiver is required by the Order, which directs that: “Components shall …
[e]ncrypt sensitive and classified information transported outside of the agency’s secured,
physical perimeter in digital format … using FIPS 140-2 validated or NSA approved encryption,
as appropriate.” See DOJ Order No. 2640.2F (Nov. 26, 2008) at 8, Chapter 1, §4(g)(2) (“Media
Protection”). 1

       Recommendation 2. Verify and document that full-disk encryption is installed on all
laptops, including the classified laptops, in accordance with DOJ policy, such as using a
checklist during the imaging process.

        Response 2. Accepted and being implemented, e.g.:

        (a) In January 2012, EOUSA began implementing its “Trusted Network Access” (TNA)
solution – comprised of ForeScout’s CounterAct network access appliances – to centrally
monitor the encryption status of all online systems within the unclassified United States Attorney
computer network.

       (b) In addition, as of March 2013, EOUSA’s Security Operations Center (SOC) verifies
the encryption status of laptops in connection with all lost/stolen laptop incident reports.

       (c) Further, in July 2013, EOUSA’s Office Automation Staff (OAS) updated its
Microsoft System Center Configuration Manager (SCCM) to enhance the imaging of all
Windows-based systems, including the installation of encryption software. Previously, SCCM
could allow an image to be pushed to a laptop and not inform if the encryption application had

        1
           With respect to encryption costs, the Audit Report states that “EOUSA paid about $28,000 for its share
of the GuardianEdge software to the Department in 2012 in addition to the money it paid for CheckPoint” (id. at 10,
n.15). This is an apparent reference to EOUSA’s share of DOJ’s IT Working Capital Fund (WCF). While
components currently have no ability to “opt-out” of WCF costs, we have found CheckPoint technically superior to,
and more user-friendly than, GuardianEdge for reliable encryption.


                                                        40

failed. As enhanced, SCCM now verifies the completion of all applications prior to a laptop
being released for use. EOUSA Information Bulletin 136,“Image 2012 Update 03 (SCCM 2007
Task Sequence).”

       (d) With respect to classified data, EOUSA laptop computers used for processing
National Security Information (“NSI” or “classified information”) comply with the pertinent
provisions of DOJ Information Technology Security Standard 1.6, “Classified Laptop and
Standalone Computers Security Policy” (www.justice.gov/oig/reports/plus/a0532/app3.htm). In
pertinent part, this DOJ policy calls for “[e]ncryption of the hard drive … on classified computer
systems.” Id. §3.13; see also Attachment 7 to Security Standard 1.6 (“Technical Checklist” ¶8,
regarding “configuration and logs of the classified computer”).

        Recommendation 3. Develop policies on the use of non-encrypted laptops for special use
if such laptops are deemed necessary, and label these laptops accordingly.

       Response 3. Accepted and being implemented, e.g.:

        In order to meet the United States Attorneys’ law enforcement and litigation mission,
EOUSA makes available to USAOs certain “special use” laptops containing specialized
hardware and software designed to facilitate electronic discovery and litigation support (such as
for audio/video processing and courtroom presentations), as well as a “standalone” image for
processing unclassified data on laptops unconnected to internal DOJ networks. Insofar as such
laptops are not equipped with whole-disk encryption capabilities (e.g., to improve processing
performance), they should be labeled accordingly.

        Recommendation 4. Document encryption verification in all EOUSA incident response
tickets and disclose the encryption status to JSOC.

       Response 4. Accepted and being implemented; see Response 2(b) above, noting that this
OIG recommendation became a standard procedure at the EOUSA SOC as of March 2013 for all
reported lost/stolen laptops.

       Recommendation 5. Complete encryption scans on a routine basis and timely follow up
on results of scans.

        Response 5. Accepted and being implemented; see Response 2(a) above, noting that
EOUSA’s new TNA solution centrally monitors the encryption status of all online systems
within the unclassified United States Attorney computer network.

       Recommendation 6. Identify unapproved laptops and remove them from use.

       Response 6. Accepted and being implemented, e.g.:

       EOUSA’s SOC monitors the entire unclassified United States Attorney computer
network on a routine and ongoing basis for intrusion detection, malware, and other unauthorized
usage. Among the SOC’s tools is the TNA solution discussed above, which detects devices on

                                               41

the network that do not contain an authorized configuration. When an unapproved laptop is
detected, the SOC immediately coordinates the shutdown of affected ports and follows-up on the
security incident to promptly remove the laptop from the network.

        Recommendation 7. Complete a Security Authorization package (formerly known as
Certification & Accreditation package) for all classified laptops and standalone computers and
re-authorize them every 3 years in accordance with DOJ policy.

       Response 7. Accepted and being implemented, e.g.:

      EOUSA is working with the Justice Management Division (DOJ) to enhance compliance
with DOJ Information Technology Security Standard 1.6, “Classified Laptop and Standalone
Computers Security Policy,” which states in pertinent part:

       [E]ach classified laptop and standalone computer must be certified and accredited
       prior to use and re-certified and re-accredited every three years or whenever a
       major system change occurs. To limit the unnecessary duplication of certification
       and accreditation activities, the Justice Management Division performed a “type
       accreditation” for classified laptop and standalone computers. Components are
       encouraged to implement computers consistent with the type accreditation.

Id. §3 (www.justice.gov/oig/reports/plus/a0532/app3.htm) (emphasis added).

       Recommendation 8. Implement procedures to ensure that accurate, current, and reliable
information is maintained in an official inventory for unclassified and classified equipment to
help EOUSA to ensure that all required laptops are encrypted and deployed in compliance with
DOJ policy.

       Response 8. Accepted and being implemented, e.g.:

         Newly purchased laptops contain no DOJ data or desktop image. Following acquisition,
all laptops – both those intended for unclassified and classified use – are subject to inventory
controls and logging in the Department’s Unicenter Asset Portfolio Management (UAPM)
system. It is expected that all laptops in each USAO’s inventory will be electronically stored by
UAPM in a central location.

        In addition, once a laptop receives an image via EOUSA’s SCCM system, SCCM logs
that laptop’s status and last known image. While SCCM is not used to image or track classified
laptops, the existence of a classified laptop will be captured in UAPM following acquisition as
noted above.

       Recommendation 9. Monitor and take action on electronic tablets with unauthorized
application downloads and with outdated versions of the mobile operating system.

       Response 9. Accepted and being implemented, e.g.:


                                                 42

        Electronic tablets with outdated versions, as mentioned in the Audit Report, have been
targeted for updating, respectively, to versions dated September 2012, May 2013, and November
2013. In addition, since December 2012, EOUSA has begun daily reporting of non-approved
electronic tablet applications, version lists, and inventories. These reports are generated each day
at 3:00 a.m. (Eastern) and made available to all USAO Systems Managers and EOUSA
electronic tablet management, as well as EOUSA’s Information Systems Security (ISS) Staff,
which audits the reports and takes action to have non-approved electronic tablet applications
removed.

       Recommendation 10. Develop comprehensive security policies and procedures for
monitoring and handling electronic tablets.

       Response 10. Accepted and being implemented, e.g.:

        As noted in Response 9 above, EOUSA has strengthened its internal management
controls for maintaining electronic tablets up-to-date with the latest mobile operating system and
keeping them free of unauthorized applications. In addition, a formal United States Attorneys’
Procedure (USAP No. 3-16.200.006, “Requesting Mobile Application Approval”) has been
issued to outline procedures by which users may request electronic tablet apps to be evaluated by
EOUSA for approval. The USAP is currently in the process of being updated to emphasize that
requests are required to clearly support the mission of the United States Attorneys’ Offices.
USAPs apply to all EOUSA and USAO network users nationwide and provide a uniform body of
procedural guidelines to facilitate the establishment of, and compliance with, sound management
principles.

       Recommendation 11. Implement each of the conditions of the February 11, 2013, waiver
to ensure that all sensitive data are encrypted between USAOs and their consultants and expert
witnesses.

       Response 11. EOUSA and the Department’s Information Technology Security Staff
(ITSS) are currently working on an updated waiver from PDG 08-04 to ensure that litigative
consultants and expert witnesses needed to support USAO cases can continue to securely share
data with Assistant United States Attorneys. EOUSA’s position is that it has properly operated
under a waiver (written or oral) at all material times.

        Recommendation 12. Define roles of the attorneys, legal assistants, and contracting
officers within the USAOs regarding contractor data security responsibility.

       Response 12. Accepted and being implemented, e.g.:

       As noted above, EOUSA maintains a system of United States Attorneys’ Procedures
(USAPs) to provide a uniform body of sound management principles nationwide. Potential
modifications to the following USAPs are being considered in connection with this
recommendation:

       •   USAP No. 3-13.000.001, “Government-Contractor Relationship Guidelines.”

                                                43

        •	 USAP No. 3-15.111.001, “Contractor Security Approval Procedures for Sensitive but
           Unclassified (SBU) Contracts.”
        •	 USAP No. 3-15.120.002, “Handling and Safeguarding Federal Tax Information.”
        •	 USAP No. 3-15.120.004, “Safeguarding Grand Jury Information.”
        Recommendation 13. Increase its oversight of contractors to ensure that contractors:
        (1) are aware of and adhere to any security provisions required by the USAOs prior to
starting work; (2) receive case information in an encrypted format; (3) implement sound
business practices such as anti-virus software, password protection, and data destruction when
the case data are not needed; and (4) instruct the sub-contractors about pass-through data
security provisions.


        Response 13. Accepted and being implemented, e.g.:

        Increased oversight is being considered in connection with this recommendation so as to
better ensure contractor and subcontractor awareness of, and adherence to, all applicable USAPs
and Departmental directives regarding laptop and tablet security/encryption requirements. This
may include training vehicles, such as the annual Computer Security Awareness Training
(CSAT), which is required of all DOJ employees, contractors, and other network users. For
example, CSAT modules could be developed to provide refresher training on the requirement in
EOUSA’s “Rules of Behavior” that users may “not transmit … sensitive information … over the
Internet unless encrypted” absent a waiver. 2 With respect to anti-virus software, password
protection, and data destruction, EOUSA’s Security Operations Center (SOC) monitors the
United States Attorney network on a continuous basis to ensure up-to-date antivirus software
protection, guard against computer malware, and deter unauthorized network intrusions. And,
whenever security issues are detected, Security Incident Reports are promptly generated and
processed for timely resolution. Moreover, USAP 3-13.200.004, “Media Disposal,” not only sets
forth detailed guidance on how to securely dispose of electronic media, but also culminated in
the establishment of an in-house “Data Destruction Center,” co-located near the SOC at
EOUSA’s Network Operations Center (NOC) in Columbia, SC, for use by all 94 USAOs
nationwide.




        2
             The Rules of Behavior applicable to all United States Attorney network users are contained in USAP
No. 3-16.200.003, “Network Account Security Management” (Attachment 5); see also DOJ Order No. 2640.2F, at 8,
Chapter 1, §4(g)(2) (“Encrypt sensitive … information transported outside of the agency’s secured digital perimeter
in digital format”). It should also be noted that USAP No. 3-13.200.005, “Secure Shipping of Information,”
prescribes a number of special packaging and tracking requirements for all physical shipments containing sensitive
information.


                                                       44

                                                            APPENDIX V

         OFFICE OF INSPECTOR GENERAL ANALYSIS AND
            SUMMARY OF ACTIONS NECESSARY
                   TO RESOLVE THE REPORT

      The OIG provided a draft of this audit report to EOUSA. EOUSA’s
response is incorporated in Appendix IV of this final report. The following
provides the OIG analysis of the response and summary of actions necessary
to resolve the report.

Recommendations:

      1. Use the Department’s encryption solution or obtain a waiver
for the use of CheckPoint encryption.

      Closed. This recommendation is closed. Subsequent to receiving
EOUSA’s response to the draft, JMD issued EOUSA a waiver that will allow it
to use CheckPoint through December 31, 2014. We reviewed the waiver
and determined that it adequately addressed our recommendation.

      2. Verify and document that full-disk encryption is installed on
all laptops, including the classified laptops, in accordance with DOJ
policy, such as using a checklist during the imaging process.

       Resolved. EOUSA concurred with our recommendation. EOUSA stated
in its response that (a) its “Trusted Network Access” (TNA) solution
centrally monitors the encryption status of all online unclassified systems;
(b) since March 2013, EOUSA’s SOC verifies the encryption status of
lost/stolen laptops; (c) it has enhanced its System Center Configuration
Manager (SCCM) to verify the completion of the laptop imaging process,
including encryption, described in EOUSA Information Bulletin 136; and
(d) its classified laptops comply with DOJ IT Security Standard 1.6,
“Classified Laptop and Standalone Computers Security Policy.”

      This recommendation can be closed when we receive evidence of
EOUSA’s: (a) implementation of the TNA solution and samples of corrective
actions taken on unencrypted laptops from this solution, also applicable to
Recommendation 5; (b) implementation of the encryption verification
procedure for the lost/stolen laptops at EOUSA’s SOC since March 2013, also
applicable to Recommendation 4; (c) sample screenshots of SCCM’s


                                    45

verification of completion of all applications prior to a laptop being released
for use, as well as a copy of EOUSA Information Bulletin 136; and
(d) encryption verification of the 24 classified laptops in the classified laptop
inventory.

     3. Develop policies on the use of non-encrypted laptops for
special use if such laptops are deemed necessary, and label these
laptops accordingly.

       Resolved. EOUSA concurred with our recommendation. EOUSA stated
in its response that the special use laptops for its litigation support should be
labeled accordingly as not encrypted.

       This recommendation can be closed when we receive evidence of
policies for the non-encrypted laptops for special use and the labeling of
those special use laptops, such as pictures of the special use laptops with
labels alerting users of their unencrypted status.

     4. Document encryption verification in all EOUSA incident
response tickets and disclose the encryption status to JSOC.

       Resolved. EOUSA concurred with our recommendation. EOUSA stated
in its response that it has implemented the encryption verification check at
the EOUSA SOC as of March 2013.

      This recommendation can be closed when we receive evidence of the
implementation of the encryption verification procedure for incident response
tickets for lost/stolen laptops and disclosure to JSOC.

      5. Complete encryption scans on a routine basis and timely
follow up on results of scans.

       Resolved. EOUSA concurred with our recommendation. EOUSA stated
in its response that its new TNA solution, mentioned in its response 2(a),
centrally monitors the encryption status of all online systems on its network.

      This recommendation can be closed when we receive evidence of the
implementation of the TNA solution and samples of corrective actions taken,
such as service tickets, on laptops identified as unencrypted from TNA’s
monitoring.




                                       46

      6. Identify unapproved laptops and remove them from use.

       Resolved. EOUSA concurred with our recommendation. EOUSA stated
in its response that its TNA solution detects devices on the network that do
not contain an authorized configuration.

      This recommendation can be closed when we receive evidence of
actions taken on the unapproved laptops noted during the audit.

     7. Complete a Security Authorization package (formerly known
as Certification & Accreditation package) for all classified laptops
and standalone computers and re-authorize them every 3 years in
accordance with DOJ policy.

       Resolved. EOUSA concurred with our recommendation. EOUSA stated
in its response that it is working with JMD to enhance compliance with DOJ
IT Security Standard 1.6.

       This recommendation can be closed when we receive a copy of the
completed Security Authorization package for the classified laptops and
classified standalone computers.

      8. Implement procedures to ensure that accurate, current, and
reliable information is maintained in an official inventory for
unclassified and classified equipment to help EOUSA to ensure that
all required laptops are encrypted and deployed in compliance with
DOJ policy.

       Resolved. EOUSA concurred with our recommendation. EOUSA stated
in its response that following acquisition all laptops are subject to inventory
controls and recorded in DOJ’s Unicenter Asset Portfolio Management
(UAPM) system, and the SCCM tracks the laptops’ status after imaging. In
addition, the UAPM will track the classified laptops.

       This recommendation can be closed when we receive evidence of
(1) efforts to clean up the existing UAPM data file, such as removing
duplicated serial numbers and machine names, correcting classification
information, and filling in missing information; (2) formalized inventory
control procedures that include how information from SCCM is to be
reconciled to UAPM, and the role of districts in maintaining the inventory
information in UAPM; and (3) the formalized procedure for maintaining the
classified laptop inventory in UAPM.


                                      47

     9. Monitor and take action on electronic tablets with
unauthorized application downloads and with outdated versions of
the mobile operating system.

       Resolved. EOUSA concurred with our recommendation. EOUSA stated
in its response that it has started targeting electronic tablets with older
mobile operating systems for upgrade and it has begun daily reporting of
unapproved applications to USAO Systems Managers and EOUSA electronic
tablet management, as well as to EOUSA’s Information Systems Security
team, which audits the reports and takes actions to have unapproved
electronic tablet applications removed.

       This recommendation can be closed when we receive evidence of
EOUSA’s actions in removing unauthorized application downloads and
updating outdated mobile operating systems on electronic tablets, such as
policies and service tickets for such corrective actions.

     10. Develop comprehensive security policies and procedures
for monitoring and handling electronic tablets.

       Resolved. EOUSA concurred with our recommendation. EOUSA stated
in its response that in addition to its response to Recommendation 9, where
it has strengthened its internal management controls to maintain electronic
tablets up-to-date, it is updating the United States Attorneys’ Procedure
(USAP) No. 3-16.200.006, “Requesting Mobile Application Approval,” to
emphasize that requests for new applications are required to clearly support
the missions of the USAOs.

      This recommendation can be closed when we receive a copy of
updated USAP No. 3-16.200.006, as well as new policies on electronic tablet
user termination and electronic tablet monitoring.

     11. Implement each of the conditions of the
February 11, 2013, waiver to ensure that all sensitive data are
encrypted between USAOs and their consultants and expert
witnesses.

       Resolved. Although EOUSA stated in its response its position that it
has properly operated under a waiver (written or oral) at all material times,
it also stated that it is currently working with DOJ’s Information Technology
Security Staff on an updated waiver from PDG 08-04. Subsequent to
receiving EOUSA’s response to the draft report, JMD issued EOUSA a waiver,
valid through December 31, 2014, that will allow it to develop and test a file

                                     48

sharing solution for securing DOJ data between the USAOs and expert
witnesses.

     This recommendation can be closed when we receive evidence of the
implemented file sharing solution.

     12. Define roles of the attorneys, legal assistants, and
contracting officers within the USAOs regarding contractor data
security responsibility.

       Resolved. EOUSA concurred with our recommendation. EOUSA stated
in its response that it is considering making modifications to four USAPs in
connection with this recommendation.

      This recommendation can be closed when we receive the updated
USAPs that clarify and define the roles of attorneys, legal assistants, and
contracting officers within the USAOs regarding contractor data security
responsibility, as well as notices to the USAOs for the implementation of
these changes.

     13. Increase its oversight of contractors to ensure that
contractors: (1) are aware of and adhere to any security provisions
required by the USAOs prior to starting work; (2) receive case
information in an encrypted format; (3) implement sound business
practices such as anti-virus software, password protection, and data
destruction when the case data are not needed; and (4) instruct the
sub-contractors about pass-through data security provisions.

       Resolved. EOUSA concurred with our recommendation. EOUSA stated
in its response that it is considering increasing the oversight of contractors
to include the possibility of the use of training vehicles such as the annual
Computer Security Awareness Training with Rules of Behaviors content for
the contractors. EOUSA responded that its SOC monitors the use of
antivirus software in its internal environment. EOUSA also cited USAP
3-13.200.004, “Media Disposal,” which provides guidance for the secure
disposal of electronic media and resulted in an in-house Data Destruction
Center.

      This recommendation can be closed when we receive evidence of
(1) instruction to the USAOs for enhanced collection of signed contractor
data waiver forms from the contractors prior to the start of contract work,
(2) implementation of data protection requirements according to the new
waiver for PGD 08-04, and (3) the implementation of training for the

                                      49

contractors and sub-contractors for security awareness including the use of
antivirus software, password protection, and proper data destruction.




                                     50

